o
' *

4'

«
No.

IN THE
SUPREME COURT OF THE UNITED STATES

Jeremiah Bryant
(Your Name)

_ — PETITIONER

VS.
Borger Management et al

— RESPONDENT(S)

PROOF OF SERVICE
Jeremiah Bryant

---------------------------, do swear or declare that on this date,
June 26
, 202Q_, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
Amanda Vaccro, 10701 Parkridge Road, Suite 300, Reston, VA 20191
Loren Alikhan, 441 4th Street, N.W, Suite 600 South, Washington, DC 20001

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

June 26

, 2020-

Ash

df\

(Signature)
feremiah Bryant

No:IN THE
SUPREME COURT OF THE UNITED STATES

JEREMIAH BRYANT,
Petitioner,
v.
BORGER MANAGEMENT, ET AL
Respondent.

DECLARATION OF TIMELY FILING

Petitioner, Jeremiah Bryant, pro se and in forma pauperis and pursuant to
SUP. CT. R. 29.2 and 28 U.S.C. § 1746, declares that the Affidavit or
Declaration in Support of Motion for Leave to Proceed in Forma Pauperis
and the Petition for a Writ of Certiorari filed in the above-styled matter
were mailed to the Clerk of the Supreme Court of the United States by
first-class mail, postage prepaid, via the United States Postal Service, the
postmark showing that the documents were mailed on June 26, 2020, being
10 days before the last day for filing and timely pursuant to the rules of this
Court.

July 17, 2020
Jerpmiah Bryant

RECEIVED
JUL 2 8 2020

